                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A12080059                                                                         Page 1 of 1



                                                        Closeout

                 OIG received an allegation that a former doctoral student (Subject1) plagiarized in his
         dissertation, 2 which was at least partially funded by an NSF Proposal. 3 The Subject's advisor was the
         sole PI of the NSF Proposal. 4 Though our inquiry concluded that the Subject appropriated text
         without proper attribution, we determined that a full investigation was not warranted. Almost all of
         the copied text in the dissertation was accompanied by a citation and the amount of copied text was
         small relative to the dissertation. In addition, the Subject's response to our inquiry letter indicated
         that he is unclear about what constitutes plagiarism and/or "appropriate credit" under NSF's
         definition in the Research Misconduct regulation. We sent the Subject a strongly-worded QRP.

                   This case is closed and no further action will be taken.




NSF OIG Form 2 (11102)
